No. 20-1019
IN THE

Supreme Court of tfje fHntteb i§> tate £
JADE THOMPSON,

Petitioner ,

v.

MARIETTA EDUCATION ASSOCIATION, ET AL.,
Respondents .

On Petition for a Writ of Certiorari to the
United States Court of Appeal for the Sixth Circuit

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief In Opposition of Respondent
Marietta Education Association in the above entitled
case complies with the typeface requirement of Su
preme Court Rule 33.1(b) , being prepared in Century
Schoolbook 12 point type for the text and 10 point for
the footnotes, and that the brief complies with the
word limit specified by Rule 33.1(g) (ii) because it contains 6,812 words, excluding the parts that are
exempted by Supreme Court Rule 33.1(d) , as needed.

-

Dated: April 30, 2021

P. Casey Pitts
ALTSHULER BERZON LLP

2

177 Post Street, Suite 300
San Francisco, CA 94108
(415) 421- 7151
cpitts@altber.com

Counsel for Respondent
Marietta Education Association

